C

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing BTief of
Amicus Cu;riae Senate of Puerto Rico in Support of
Respondent in 20-303, United States ofAmerica v. Jose
Luis Vaello-Madero, was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 7th day of September, 2021:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner
Hermann Ferre
Curtis, Mallet-Prevost, Colt and Mosle LLP
101 Park Avenue
New York, NY 10178
(212) 696-8871
hferre@curtis.com

Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Edwin Quinones
Counsel of Record
Quinones, Arbona & Candelario
Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 7, 2021.

Donna J. Wolf
Becker Gallaglier Leg Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

~ tt:;

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date

cJ~kJ.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Put*c, State of Ohio
My Commission Expir,, .;
r •bn,ary 14, ~ .. J3

